         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report



       Fiscal Year 2009
       Federal Information Security
       Management Act Report

       Status of EPA’s Computer Security Program


       Report No. 10-P-0030

       November 18, 2009
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL
                                        November 18, 2009

MEMORANDUM

SUBJECT:              Fiscal Year 2009 Federal Information Security
                      Management Act Report: Status of EPA’s Computer
                      Security Program
                      Report No. 10-P-0030


FROM:                 Bill A. Roderick
                      Deputy Inspector General

TO:                   Lisa P. Jackson
                      Administrator


Attached is the Office of Inspector General’s (OIG’s) Fiscal Year 2009 Federal Information
Security Management Act (FISMA) Reporting Template, as prescribed by the Office of
Management and Budget (OMB). Williams, Adley and Company, LLP, performed this review
under the direction of the U.S. Environmental Protection Agency’s OIG and performed the
review in accordance with generally accepted government auditing standards. These standards
require them to plan and perform the review to obtain sufficient and appropriate evidence to
provide a reasonable basis for their findings and conclusions based on the objectives of the
review.

Williams, Adley, and Company, LLP, limited their testing to those managerial controls necessary
to achieve the objectives described in OMB Memorandum M-09-29, FY 2009 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management, August 20, 2009. Williams, Adley, and Company, LLP, did not test all managerial
controls relevant to the effectiveness of the Agency’s information security program as broadly
defined by FISMA.

We believe the evidence obtained provides a reasonable basis for our findings and conclusions,
and in all material respects meets the FISMA reporting requirements prescribed by OMB. In
accordance with OMB reporting instructions, I am forwarding this report to you for submission,
along with the Agency’s required information, to the Director, OMB.

Furthermore, OIG audit work performed during Fiscal Year 2009 did not disclose material
weaknesses with respect to the Agency’s information security program that should be disclosed
pursuant to the Federal Managers’ Financial Integrity Act of 1982. However, OIG audits noted 

significant weaknesses with several aspects of EPA’s information security program. 

Appendix A synopsizes the results of our significant Fiscal Year 2009 information security 

audits. 


The estimated cost for performing this audit, which includes contract costs and OIG contract 

management oversight, is $164,271. 

Inspector General                    2009
Section Report                     AAnnnnu
                                         uaal
                                            l FFIS
                                                 I SMM
                                                     AA
                                         Report




       Environmental Protection Agency
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing
1. Identify the number of Agency and contractor systems by component and FIPS 199 impact level (low, moderate, high) reviewed.



2. For the Total Number of Reviewed Systems Identified by Component/Bureau and FIPS System Impact Level in the table for
Question 1, identify the number and percentage of systems which have: a current certification and accreditation, security controls
tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                       c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems         Number of systems
                                                                                    Systems(Agency and         systems certified       for which security            for which
                                                                                    Contractor systems)         and accredited         controls have been        contingency plans
                                                                                                                                       tested and reviewed       have been tested in
                                                                                                                                         in the past year         accordance with
                                                                                                                                                                       policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
OA                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               0           0           0             0          0              0                        0                         0                         0
                   Low                    2           1           0             0          2              1                        1                         1                         1
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              2           1           0             0          2              1                        1                         1                         1
OAR                High                   1           0           0             0          1              0                        0                         0                         0
                   Moderate               9           1           1             0         10              1                        1                         1                         1
                   Low                    3           0           1             0          4              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total             13           1           2             0         15              1                        1                         1                         1




2009 Annual FISMA Report - Environmental Protection Agency                                                                                                           Page 1 of 15
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                       c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems         Number of systems
                                                                                    Systems(Agency and         systems certified       for which security            for which
                                                                                    Contractor systems)         and accredited         controls have been        contingency plans
                                                                                                                                       tested and reviewed       have been tested in
                                                                                                                                         in the past year         accordance with
                                                                                                                                                                       policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
OARM               High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               8           3           2             0         10              3                        3                         2                         3
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              8           3           2             0         10              3                        3                         2                         3
OCFO               High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate              15           2           0             0         15              2                        1                         2                         2
                   Low                    1           0           0             0          1              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total             16           2           0             0         16              2                        1                         2                         2
OECA               High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               7           0           0             0          7              0                        0                         0                         0
                   Low                    2           1           0             0          2              1                        1                         1                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              9           1           0             0          9              1                        1                         1                         0
OEI                High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate              17           1           4             2         21              3                        3                         3                         3
                   Low                   11           2           3             0         14              2                        1                         1                         1
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total             28           3           7             2         35              5                        4                         4                         4




2009 Annual FISMA Report - Environmental Protection Agency                                                                                                           Page 2 of 15
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                       c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems         Number of systems
                                                                                    Systems(Agency and         systems certified       for which security            for which
                                                                                    Contractor systems)         and accredited         controls have been        contingency plans
                                                                                                                                       tested and reviewed       have been tested in
                                                                                                                                         in the past year         accordance with
                                                                                                                                                                       policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
OGC                High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               0           0           0             0          0              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              0           0           0             0          0              0                        0                         0                         0
OIA                High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               0           0           0             0          0              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              0           0           0             0          0              0                        0                         0                         0
OIG                High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               7           0           0             0          7              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              7           0           0             0          7              0                        0                         0                         0
OPPTS              High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               4           0           1             0          5              0                        0                         0                         0
                   Low                    1           0           0             0          1              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              5           0           1             0          6              0                        0                         0                         0




 2009 Annual FISMA Report - Environmental Protection Agency                                                                                                          Page 3 of 15
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                       c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems         Number of systems
                                                                                    Systems(Agency and         systems certified       for which security            for which
                                                                                    Contractor systems)         and accredited         controls have been        contingency plans
                                                                                                                                       tested and reviewed       have been tested in
                                                                                                                                         in the past year         accordance with
                                                                                                                                                                       policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
ORD                High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               5           0           0             0          5              0                        0                         0                         0
                   Low                    9           1           0             0          9              1                        1                         1                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total             14           1           0             0         14              1                        1                         1                         0
OSWER              High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               3           1           1             0          4              1                        1                         1                         1
                   Low                    4           0           1             0          5              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              7           1           2             0          9              1                        1                         1                         1
OW                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               3           1           0             0          3              1                        1                         0                         1
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              3           1           0             0          3              1                        1                         0                         1
R1                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              1           0           0             0          1              0                        0                         0                         0




2009 Annual FISMA Report - Environmental Protection Agency                                                                                                            Page 4 of 15
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                       c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems         Number of systems
                                                                                    Systems(Agency and         systems certified       for which security            for which
                                                                                    Contractor systems)         and accredited         controls have been        contingency plans
                                                                                                                                       tested and reviewed       have been tested in
                                                                                                                                         in the past year         accordance with
                                                                                                                                                                       policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
R10                High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              1           0           0             0          1              0                        0                         0                         0
R2                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               2           0           0             0          2              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              2           0           0             0          2              0                        0                         0                         0
R3                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              1           0           0             0          1              0                        0                         0                         0
R4                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              1           0           0             0          1              0                        0                         0                         0




2009 Annual FISMA Report - Environmental Protection Agency                                                                                                             Page 5 of 15
Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
Testing, and Contingency Plan Testing

                                                               Question 1                                                                    Question 2

                                           a.                      b.                          c.                     a.                        b.                       c.
                                     Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems         Number of systems
                                                                                    Systems(Agency and         systems certified       for which security            for which
                                                                                    Contractor systems)         and accredited         controls have been        contingency plans
                                                                                                                                       tested and reviewed       have been tested in
                                                                                                                                         in the past year         accordance with
                                                                                                                                                                       policy


Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                     Number     Reviewed    Number      Reviewed     Number         Reviewed
R5                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               2           1           0             0          2              1                        1                         1                         1
                   Low                    1           0           0             0          1              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              3           1           0             0          3              1                        1                         1                         1
R6                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              1           0           0             0          1              0                        0                         0                         0
R7                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    0           0           0             0          0              0                        0                         0                         0
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              1           0           0             0          1              0                        0                         0                         0
R8                 High                   0           0           0             0          0              0                        0                         0                         0
                   Moderate               1           0           0             0          1              0                        0                         0                         0
                   Low                    1           1           0             0          1              1                        1                         1                         1
                   Not Categorized        0           0           0             0          0              0                        0                         0                         0
                   Sub Total              2           1           0             0          2              1                        1                         1                         1




2009 Annual FISMA Report - Environmental Protection Agency                                                                                                           Page 6 of 15
 Question 1: FISMA Systems Inventory & Question 2: Certification and Accreditation, Security Controls
 Testing, and Contingency Plan Testing

                                                                Question 1                                                                    Question 2

                                            a.                      b.                          c.                     a.                        b.                        c.
                                      Agency Systems        Contractor Systems         Total Number of             Number of            Number of systems          Number of systems
                                                                                     Systems(Agency and         systems certified       for which security             for which
                                                                                     Contractor systems)         and accredited         controls have been         contingency plans
                                                                                                                                        tested and reviewed        have been tested in
                                                                                                                                          in the past year          accordance with
                                                                                                                                                                         policy


 Agency/Component   Category            Total     Number      Total       Number        Total         Number
                                      Number     Reviewed    Number      Reviewed     Number         Reviewed
 R9                 High                   0           0           0             0          0              0                        0                         0                          0
                    Moderate               1           0           1             1          2              1                        1                         1                          1
                    Low                    0           0           0             0          0              0                        0                         0                          0
                    Not Categorized        0           0           0             0          0              0                        0                         0                          0
                    Sub Total              1           0           1             1          2              1                        1                         1                          1
 Agency Totals      High                   1           0           0             0          1              0                        0                         0                          0
                    Moderate              90           10         10             3       100               13                     12                          11                         13
                    Low                   35           6           5             0         40              6                        5                         5                          3
                    Not Categorized        0           0           0             0          0              0                        0                         0                          0
                    Total Systems        126           16         15             3       141               19                     17                          16                         16




2009 Annual FISMA Report - Environmental Protection Agency                                                                                                            Page 7 of 15
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory
The Agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the Agency or other
organization on behalf of the Agency meet the requirements of FISMA, OMB policy and NIST guidelines, national security policy, and
Agency policy.

Agencies are responsible for ensuring the security of information systems used by a contractor of their Agency or other organization on
behalf of their Agency; therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another
Federal Agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.
3a. Does the Agency have policies for oversight of contractors?
     Yes

     3a(1). Is the policy implemented?
             Yes
                       Comments:     EPA's Network Security Policy states that the Agency must monitor contractor's compliance with information
                                     security responsibilities in Agency contracts. The policy is implemented; however, procedures and training
                                     could be improved for the Certification and Accreditation process.

3b. Does the Agency have a materially correct inventory of major information systems (including national security systems)
operated by or under the control of such Agency?
     Yes

3c. Does the Agency maintain an inventory of interfaces between the Agency systems and all other systems, such as those not
operated by or under the control of the Agency?
     Yes
3d. Does the Agency require agreements for interfaces between systems it owns or operates and other systems not operated by
or under the control of the Agency?
     Yes
3e. The Agency inventory is maintained and updated at least annually.
     Yes


2009 Annual FISMA Report - Environmental Protection Agency                                                                              Page 8 of 15
3f. The IG generally agrees with the CIO on the number of Agency-owned systems.
     Yes

3g. The IG generally agrees with the CIO on the number of information systems used or operated by a contractor of the Agency or
other organization on behalf of the Agency.
     Yes




Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the Agency has developed, implemented, and is managing an Agency-wide plan of action and milestones (POA&M)
process, providing explanatory detail in the area provided.

4a. Has the Agency developed and documented an adequate policy that establishes a POA&M process for reporting IT security
deficiencies and tracking the status of remediation efforts?

    Yes
           Comments:       EPA has developed and implemented the following:

                           - Procedure for Information Security Plans of Actions and Milestones
                             (POA&Ms), dated June 18, 2004
                           - EPA Certification and Accreditation Process, dated May 11, 2006
                           - Quarterly and Annual Training to Information Security Officers on
                             Entering POA&Ms
                           - Automated Process for Entering POA&Ms in Agency's tracking and
                             reporting database

    4a(1). Has the Agency fully implemented the policy?

             Yes
4b. Is the Agency currently managing and operating a POA&M process?
    Yes


 2009 Annual FISMA Report - Environmental Protection Agency                                                                       Page 9 of 15
4c. Is the Agency's POA&M process an Agency-wide process, incorporating all known IT security weakness, including
IG/external audit findings associated with information systems used or operated by the Agency or by a contractor of the Agency or
other organization on behalf of the Agency?
    Yes

4d. Does the POA&M process prioritize IT security weakness to help ensure significant IT security weaknesses are corrected in
a timely manner and receive appropriate resources?
    Yes

4e. When an IT security weakness is identified, do program officials (including CIOs, if they own or operate a system) develop,
implement, and manage POA&Ms for their system(s)?
     Yes

4f. For Systems Reviewed:
    4f(1). Are deficiencies tracked and remediated in a timely manner?
           Yes
     4f(2). Are the remediation plans effective for correcting the security weakness?

           Yes

     4f(3). Are the estimated dates for remediation reasonable and adhered to?
           Yes
4g. Do Program officials and contractors report their progress on security weakness remediation to the CIO on a regular basis (at
least quarterly)?
    Yes

4h. Does the Agency CIO centrally track, maintain, and independently review/validate POA&M activities on at least a quarterly
basis?
    Yes




 2009 Annual FISMA Report - Environmental Protection Agency                                                                   Page 10 of 15
Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the Agency's certification and accreditation (C&A) process, including adherence to existing policy,
guidance, and standards. Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation
of Federal Information Systems" for C&A work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security
Categorization of Federal Information and Information Systems," to determine a system impact level, as well as associated NIST
documents used as guidance for completing risk assessments and security plans.

5a. Has the Agency developed and documented an adequate policy for establishing a C&A process that follows the NIST
framework?
     Yes
5b. Is the Agency currently managing and operating a C&A process in compliance with its policies?
     Yes
5c. For Systems reviewed, does the C&A process adequately provide:
     5c(1). Appropriate risk categories
             Yes
     5c(2). Adequate risk assessments
             No
     5c(3). Selection of appropriate controls
             Yes
     5c(4). Adequate testing of controls
             No
     5c(5). Regular monitoring of system risks and the adequacy of controls
             Yes
5d. For systems reviewed, is the Authorizing Official presented with complete and reliable C&A information to facilitate an
informed system Authorization to Operate decision based on risks and controls implemented?
     No
              Comments:      Based on the systems selected for review, information security documentation was not complete nor accurate in order
                             for an authorizing official to make an informed decision to authorize a system for operation.


Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process
                                                                                                                                           Page 11 of 15
2009 Annual FISMA Report - Environmental Protection Agency
Provide a qualitative assessment of the Agency's process, as discussed in the SAOP section, for protecting privacy-related information,
including adherence to existing policy, guidance and standards. Provide explanatory information in the area provided.

6a. Has the Agency developed and documented adequate policies that comply with OMB guidance in M-07-16, M-06-15, and
M-06-16 for safeguarding privacy-related information?
     Yes
6b. Is the Agency currently managing and operating a privacy program with appropriate controls in compliance with its policies?
     Yes
6c. Has the Agency developed and documented an adequate policy for PIAs?
     Yes
6d. Has the Agency fully implemented the policy and is the Agency currently managing and operating a process for performing
adequate PIAs?
     Yes

Question 7: Configuration Management

7a. Is there an Agency wide security configuration policy?
     Yes

7a(1). For each OS/platform/system for which your Agency has a configuration policy, please indicate the status of implementation for
that policy.
     OS/Platform/System                                    Implementation Status
     Microsoft Windows 2000                                Policy fully implemented
                                                           What tools and techniques is your Agency using for monitoring compliance?
                                                                    Tool/Technique Name                   Tool Category
                                                                    Symantec RMS, Bindview, Security      Network Monitoring Software
                                                                    Configuration Management Tool
                                                                    Lumension Patchlink                   Patch Scanners




    2009 Annual FISMA Report - Environmental Protection Agency                                                                        Page 12 of 15
OS/Platform/System                                Implementation Status
Redhat Enterprise Linux 4                         Policy fully implemented
                                                  What tools and techniques is your Agency using for monitoring compliance?
                                                             Tool/Technique Name                  Tool Category
                                                             Unix Security Checklist, Tripwire,   Network Monitoring Software
                                                             Enterprise Security Manager,
                                                             Bindview, NOS Admin, Symantec
                                                             Control Compliance Suite
IBM AIX 5                                         Policy fully implemented
                                                  What tools and techniques is your Agency using for monitoring compliance?
                                                             Tool/Technique Name                  Tool Category
                                                             Afick, Symantec Control              Network Monitoring Software
                                                             Compliance Suite Product
Microsoft Windows XP                              Policy fully implemented
                                                  What tools and techniques is your Agency using for monitoring compliance?
                                                             Tool/Technique Name                  Tool Category
                                                             Symantec RMS, Bindview,Security      Network Monitoring Software
                                                             Configuration Management Tool
                                                             Lumension Patchlink                  Patch Scanners
Sun Solaris 9                                     Policy fully implemented
                                                  What tools and techniques is your Agency using for monitoring compliance?
                                                             Tool/Technique Name                  Tool Category
                                                             Unix Security Checklist, Tripwire,   Network Monitoring Software
                                                             Bindview, NOS Admin Basic
                                                             Security Module
                                                             C2 Auditing                          Log Analysis Software
                                                             Enterprise Security Manager          Vulnerability Scanners




2009 Annual FISMA Report - Environmental Protection Agency                                                                 Page 13 of 15
    OS/Platform/System                                  Implementation Status
    Sun Solaris 10                                      Policy fully implemented
                                                        What tools and techniques is your Agency using for monitoring compliance?
                                                                 Tool/Technique Name                  Tool Category
                                                                 Unix Security Checklist, Tripwire,   Network Monitoring Software
                                                                 Bindview, NOS Admin Basic
                                                                 Security Module
                                                                 C2 Auditing                          Log Analysis Software
                                                                 Enterprise Security Manager          Vulnerability Scanners



7b. Indicate the status of the implementation of Federal Desktop Core Configuration (FDCC) at your Agency:
    7b(1). Agency has documented deviations from FDCC standard configuration.

            Yes

    7b(2). New Fedebral Acquisition Regulation 2008-004 language, which modified "Part 39-Acquisition of Information Technology,"
    is included in all contracts related to common security settings.
            Yes

Question 8: Incident Reporting

8a. How often does the Agency comply with documented policies and procedures for identifying and reporting incidents internally?

    90 % to 100 %

8b. How often does the Agency comply with documented policies and procedures for timely reporting of incidents to US-CERT?
    90 % to 100 %

8c. How often does the Agency follow documented policies and procedures for reporting to law enforcement?
    90 % to 100 %



 2009 Annual FISMA Report - Environmental Protection Agency                                                                        Page 14 of 15
Question 9: Security Awareness Training
Provide an assessment of whether the Agency has provided IT security awareness training to all users with log-in privileges, including
contractors. Also provide an assessment of whether the Agency has provided appropriate training to employees with significant IT
security responsibilities.

9a. Has the Agency developed and documented an adequate policy for identifying all general users, contractors, and system
owners/employees who have log-in privileges, and providing them with suitable IT security awareness training?
     Yes
9b. Report the following for your Agency:
     9b(1). Total number of people with log-in privileges to Agency systems.
              22,325
     9b(2). Number of people with log-in privileges to Agency systems that received information security awareness training during the
     past fiscal year, as described in NIST Special Publication 800-50, "Building an Information Technology Security Awareness and
     Training Program."
              22,281        (100 %)
     9b(3). Total number of employees with significant information security responsibilities.
             507
     9b(4). Number of employees with significant security responsibilities that received specialized training, as described in NIST
     Special Publication 800-16, "Information Technology Security Training Requirements: A Role- and Performance-Based Model."

             491           (97 %)

Question 10: Peer-to-Peer File Sharing

10. Does the Agency explain policies regarding the use of peer-to-peer file sharing in IT security awareness training, ethics training,
or any other Agency-wide training?
     Yes




2009 Annual FISMA Report - Environmental Protection Agency                                                                                Page 15 of 15
                                                                                   Appendix A

        Summary of Significant Fiscal Year 2009
                Security Control Audits
During Fiscal Year 2009, the U.S. Environmental Protection Agency’s (EPA’s) Office of
Inspector General (OIG) initiated the following audits of EPA’s information technology security
program and information systems. The following synopsizes key findings.


1. 	 Improved Security Planning Needed for the Customer Technology Solutions
    (CTS) Project, Report No. 10-P-0028, November 16, 2009

  In general, EPA needs to (1) direct the CTS contractor to develop and implement a
  vulnerability testing and remediation process for CTS equipment, (2) issue a memorandum to
  Agency Senior Information Officials requiring their program office to conduct vulnerability
  testing of CTS equipment until a formal vulnerability testing and management process with
  CTS has been established, (3) require the CTS contractor to remediate identified
  vulnerabilities in a timely manner and inform the respective Senior Information Official when
  they complete the corrective action, and (4) ensure all key actions outlined in the conditional
  CTS authorization to operate are completed by the defined milestone dates.

2. Project Delays Prevent EPA from Implementing an Agency-wide Information
   Security Vulnerability Management Program, Report No. 09-P-0240,
   September 21, 2009

   EPA needs to (1) create plans of action and milestones for unimplemented recommendations,
   (2) update the Management Audit Tracking System to show the status of each implemented
   audit recommendation, (3) provide EPA program and regional offices with an alternative
   solution for vulnerability management, (4) establish a workgroup to solicit input on training
   needs and facilitate rolling out the Agency-wide vulnerability management program, and
   (5) issue an updated memorandum discussing guidance and requirements.

   EPA concurred with the recommendations and subsequently implemented corrective actions
   to adequately address the report recommendations.

3. ECHO Data Quality Audit – Phase I Results: The Integrated Compliance
   Information System Needs Security Controls to Protect Significant
   Non-Compliance Data, Report No. 09-P-0226, August 31, 2009

   EPA needs to implement data security features to limit the end users’ ability to change data
   field information. EPA plans to explore additional options to restrict manual override of data
   field information.
4. EPA Should Delay Deploying Its New Acquisition System until Testing Is
   Completed, Report No. 09-P-0197, July 20, 2009

   EPA needs to (1) identify and document all system requirements; (2) update, review, and
   implement formal testing policies and procedures; (3) test all system requirements; (4) update
   the project schedule to communicate the current status of and future project activities; and
   (5) develop and implement oversight procedures to ensure system development activities and
   future projects adhere to all requirements.

   EPA concurred with the findings and will delay deployment until the next fiscal year.

5. Steps Taken But More Work Needed to Strengthen Governance, Increase
   Utilization, and Improve Security Planning for the Exchange Network, Report
   No. 09-P-0184, June 30, 2009

   In general, EPA needs to (1) submit an updated correction action plan for unimplemented
   recommendations, (2) recertify and reaccredit the Central Data Exchange, (3) update the
   Central Data Exchange security plan and develop the contingency plan in accordance with
   federal guidance, and (4) conduct a formal, independent risk assessment for the Central Data
   Exchange.

6. Lack of Project Plan Resulted in Transition and Contractor Performance
   Problems for the Institutional Controls Tracking System, Report No. 09-P-0128,
   March 25, 2009

   In general, EPA needs to (1) document procedures for overseeing development activities as
   prescribed by Agency guidance, and (2) conduct and document a review of system
   documentation to ensure the document is current.

   EPA concurred with findings and recommendations and provided a complete corrective
   action plan to address the report’s recommendations.

7. 	 Review of the Quality of Self-Reported Security Information in EPA’s
     Automated Security Self-Evaluation and Remediation Tracking (ASSERT)
     System, Assignment No. 2008-0003

   The primary objective of this assignment is to determine whether EPA has implemented
   effective management control processes for maintaining the quality of the data in EPA’s
   ASSERT system. The OIG plans to issue a final report by December 2009.
As part of the Fiscal Year 2009 Federal Information Security Management Act
audit, the following series of network vulnerability reports were issued to
EPA’s offices to address high-risk vulnerabilities:

-	 Results of Technical Network Vulnerability Assessment: EPA’s Great Lakes National
   Program Office, Report No. 09-P-0185, June 30, 2009
-	 Results of Technical Network Vulnerability Assessment: EPA’s National Computer
   Center, Report No. 09-P-0186, June 30, 2009
-	 Results of Technical Network Vulnerability Assessment: Region 8, Report No.
   09-P-0187, June 30, 2009
-	 Results of Technical Network Vulnerability Assessment: EPA’s Potomac Yard
   Buildings, Report No. 09-P-0188, June 30, 2009
-	 Results of Technical Network Vulnerability Assessment: EPA’s 1310 L Street Building,
   Report No. 09-P-0189, June 30, 2009
-	 Results of Technical Network Vulnerability Assessment: EPA’s Research Triangle Park
   Finance Center, Report No. 09-P-0227, August 31, 2009

EPA officials developed plans of action and milestones to remediate the network
vulnerabilities.


As part of the Fiscal Year 2008 Federal Information Security Management Act
audit, the following series of network vulnerability reports were issued to
EPA’s offices to address high- and medium-risk vulnerabilities:

-    Results of Technical Network Vulnerability Assessment: EPA Headquarters, Report No.
     09-P-0097, February 23, 2009
-	   Results of Technical Network Vulnerability Assessment: EPA’s Research Triangle Park
     Campus, Report No. 09-P-0055, December 9, 2008
-	   Results of Technical Network Vulnerability Assessment: EPA’s Las Vegas Finance
     Center, Report No. 09-P-0054, December 9, 2008
-	   Results of Technical Network Vulnerability Assessment: EPA’s Radiation and Indoor
     Environments National Laboratory, Report No. 09-P-0053, December 9, 2008
-	   Results of Technical Network Vulnerability Assessment: Region 9, Report No.
     09-P-0052, December 9, 2008

EPA officials developed plans of action and milestones to remediate the network
vulnerabilities.
                                                                              Appendix B

                                    Distribution

Office of the Administrator
Acting Assistant Administrator for Environmental Information and Chief Information Officer
Acting Director, Office of Technology Operations and Planning, Office of Environmental Information
Senior Agency Information Security Officer, Office of Environmental Information
Acting Director, Technology and Information Security Staff, Office of Environmental Information
General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General
